NO.

IN THE
SUPREME COURT OF THE UNITED STATES
GEORGE CHARLES CLARK,
Petitioner
v.
CHAMPION NATIONAL SECURITY, INCORPORATED,
Respondent.
On Petition for Writ of Certiorari
To the United States Court of Appeals
For the Fifth Circuit
APPENDIX TO PETITION FOR WRIT OF CERTIORARI
VOL. A
Susan E. Hutchison
Texas State Bar No. 10354100
Counsel of Record for Petitioner
Hutchison & Stoy, PLLC
505 Pecan Street, Suite 101
Fort Worth, Texas 76102
sehservice@hsjustice.com
T: (817) 820-0100
F: (817) 820-0111

TABLE OF CONTENTS
Appendix A Memorandum Order Denying Petition for Panel Rehearing and
Rehearing En Banc in theUnited States Court of Appeals,
Fifth Circuit (Revised March 10, 2020) Clark v. Champion Nat’l Sec.,
Inc., 947 F.3d 275 (5th Cir.), opinion superseded on denial of reh’g, 952
F.3d 570 (5th Cir. 2020)………………………………………………………1a
Appendix B Memorandum Opinion in the United States Court of Appeals, Fifth
Circuit (January 14, 2020) Clark v. Champion Nat’l Sec., Inc., 952 F.3d
570 (5th Cir. 2020)……………………………………………………………37a
Appendix C Memorandum Opinion on Defendant’s Motion for Summary
Judgment in the Northern District of Texas, Dallas Division
(November 18, 2018)………………………………………………………..72a

Case: 18-11613 Document: 00515342393 Page: 1

Date Filed: 03/12/2020

REVISED March 10, 2020
IN THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT
No. 18-11613
United States Court of Appeals
Fifth Circuit

GEORGE CHARLES CLARK,
v.

Plaintiff-Appellant,

FILED JANUARY 13, 2020
LYLE W. CAYCE CLERK

CHAMPION NATIONAL SECURITY, INCORPORATED,
Defendant-Appellee
Appeal from the United States District Court
For the Northern District of Texas
ON PETITION FOR REHEARING AND REHEARING EN BANC
Before ELROD, WILLETT, and OLDHAM, Circuit Judges.
DON R. WILLETT, Circuit Judge:
The petition for rehearing is DENIED and no member of this panel nor judge
in active service having requested that the court be polled on rehearing en banc,
the petition for rehearing en banc is also DENIED. The following is substituted in
place of our opinion.
In this workplace-discrimination appeal, Charles Clark says he was fired
because of a diabetes-related condition. His employer, Champion National

1a

Case: 18-11613 Document: 00515342393 Page: 2

Date Filed: 03/12/2020

Security, Inc., offers a simpler explanation: Clark was sleeping at his desk during
work hours, an immediately terminable offense. The district court granted
Champion’s motion for summary judgment. We affirm.
I. BACKGROUND
Champion provides uniformed security services to other companies. In
October 2015, Champion hired Clark as a Personnel Manager. 1 In this position,
Clark was responsible for human resources and employee-related issues at his
branch. 2 His duties included interviewing, hiring, training, disciplining, and
terminating security guards. For example, Clark “trained security guards and
gave guidance about Champion’s policies, including the alertness policy.” He also
“participated in the process of terminating Champion employees that [sic] appeared
to be asleep at work.” 3 As such, Champion maintains that it was particularly
important “for Clark to set a good example [for] guards and staff by being alert at
work.” Generally, it’s important to Champion that “managers who are enforcing

1

At that time, Champion had four regions—all of which reported to one corporate office. Clark worked

as the Personnel Manager for the Arlington, Texas branch in the South Central region.
2

Champion’s Corporate Human Resources Manager, Jeff Mays, determined the job functions of the

regional personnel managers, like Clark.
3

According to Champion management, the termination “process typically involves taking a

photograph of the employee, obtaining witness statements, and terminating their employment
immediately (i.e., certainly before they do any further work).”

2a

Case: 18-11613 Document: 00515342393 Page: 3

Date Filed: 03/12/2020

policy are also compliant with those same policies.”
According to Clark, he suffered from multiple physical and mental
ailments prior to and during his employment at Champion. 4 Most relevant to this
case, Clark has been an insulin-dependent Type II diabetic for over a decade. Clark
requested two accommodations for his diabetes, which Champion granted: First, he
requested a refrigerator in his office in which to store insulin.

Second, Clark

requested flexibility to leave work to attend doctor appointments.

Champion

provided these accommodations throughout Clark’s tenure at the company. And
Clark didn’t request any other accommodations related to his diabetes.
But Clark did request exceptions to Champion policies. Due to the nature of its
customer-facing and public-facing business, Champion requires officers and staff
to adhere to specific dress and grooming requirements. Notably, Champion requires
employees to be clean-shaven and wear dress shirts tucked into their pants. 5 But

4

Clark claims that he has suffered from several mental disorders, such as Post- Traumatic Stress

Disorder, Major Depressive Disorder, Attention-Deficit/Hyperactivity Disorder,

“depression,

psychotic,” and Generalized Anxiety Disorder. Clark also claims that he has suffered from physical
ailments like arthritis. But there is no evidence that Clark alerted Champion about these mental or
physical conditions, and he doesn’t claim that they impacted his employment, so they don’t affect this
dispute.
5

The grooming policy requires male employees “to maintain a clean shaven appearance. No beards,

long sideburns (below ear), or goatees. Exceptions: . . . beard for medical need (provide proof to Human

3a

Case: 18-11613 Document: 00515342393 Page: 4

Date Filed: 03/12/2020

Clark wanted to “grow [a] small beard.” He believed Champion should have
granted this request because he interacted with fellow employees, not clients.
Champion denied Clark’s request.
About three months later, Clark renewed his request. This time, Clark
framed his request as one based upon his diabetes. 6 He submitted a note from his
general practitioner. But the note merely stated, “[p]lease excuse [Clark] from the
shaving requirement as he has eczema and dry skin.” Clark does not assert that
eczema or dry skin is a disability. Champion assented to Clark’s request based on
this doctor’s note. But Bill McCoy, Champion’s then-Senior Vice President, offered
Clark an extra fifty cents per hour for complying with the shaving policy. Clark
rejected the offer.
Around the same time, Clark also requested an exception to Champion’s dress
code. Clark had recently undergone shoulder surgery. So he requested an

Resources).” “All officers are expected to tuck in their uniform shirt at all times.”
6

Clark’s email to Champion said, “Diabetics face a variety of potential skin problems. Those with

diabetes are at an increased risk for bacterial or fungal skin infection.” His email then went on to
describe folliculitis and ways to manage it—including “reduc[ing] frequency of shaving (or grow a
beard).” But Clark admitted in his deposition that he had never been diagnosed with folliculitis.
Another email of Clark’s asserts that “[t]he medical note that I provided to Matt for my facial hair
exemption is for a medical issue that is a result of my diabetes. I have been an insulin-dependent
diabetic for eight years.”

4a

Case: 18-11613 Document: 00515342393 Page: 5

Date Filed: 03/12/2020

accommodation permitting him to leave his shirt untucked during his recovery. In
support of this request, Clark submitted a note from his doctor. The note prohibited
“manipulation of the left arm until released by the surgeon.” Because the note did
not state that he was unable to tuck in his shirt, Champion initially denied Clark’s
request, thinking that he could tuck in his shirt without using his left arm. Clark
submitted additional documentation from his doctor, but it still didn’t explicitly say
that he was unable to tuck in his shirt. 7 McCoy told Clark that Champion did not
believe his request to leave his shirt untucked was reasonable.
After Clark exchanged a series of emails about his dress and grooming
requests with McCoy, Clark asserted that McCoy was harassing him on the basis
of disability. So McCoy referred Clark to Jeff Mays, Champion’s Corporate Human
Resources Director. 8 Clark submitted a formal complaint to Mays in April 2016. 9

7

Clark subsequently submitted a note from his doctor that stated, “Clark should not be performing

any activity that affects the left shoulder cuff and causes pain, including reaching behind his back
8

McCoy’s email to Clark stated, “I have copied in the HR manager [Mays] so that he can obtain your

formal complaint and begin an investigation.”
9

In this complaint, Clark alleges that McCoy was harassing him by: requiring multiple notes from

Clark’s doctors to justify his need for accommodations under the dress and grooming policy, sending
emails that were “unprofessional” and “mocking,” and denying him a fifty-cent raise on the basis of
disability. We think Clark mischaracterizes both the tone of the emails and McCoy’s offer to pay Clark
an additional fifty cents per hour (he had already received a 4% raise) to incentivize him to shave

5a

Case: 18-11613 Document: 00515342393 Page: 6

Date Filed: 03/12/2020

And Mays investigated the allegations. Mays concluded that McCoy did not harass
Clark on the basis of disability. Mays shared these findings with both McCoy and
Clark—though Clark rejected the legitimacy of the investigation. 10
Let’s fast forward to August 2016. A Champion employee told Paul Bents,
Clark’s manager, that “Clark was closing his office door for long periods of time” and
she “could often hear him snoring.” 11 The following month, Bents received a picture
anonymously by text message. This picture appeared to show Clark asleep at his
desk at work. “Lack of alertness” at work—which includes “sleeping or giving the
appearance of sleeping”—is an immediately terminable offense at Champion. 12 But
Champion did not terminate Clark at this time. Champion explained that using an
anonymous picture as sole proof would have deviated from its usual process of
terminating a non-alert employee, which includes collecting two witness

in compliance with its grooming policy.
10

At the time of the investigation, Mays reported to McCoy. So Clark argues that the investigation

lacked fairness and impartiality.
11

Bents circulated a “general reminder email to all office staff reiterating [Champion’s] open door

policy.” Clark contested the policy, and Bents provided him with a copy of it.
12

Champion’s Handbook lists terminable offenses, including “[f]ailure to maintain alertness: . . .

sleeping or giving the appearance of sleeping at any time while on duty or on the client’s property
(including breaks) is considered a terminable offense.”

6a

Case: 18-11613 Document: 00515342393 Page: 7

Date Filed: 03/12/2020

statements. Plus, the supposed violation of the alertness policy was not properly
documented. So Champion took no action against Clark.
But December 7, 2017 was a different story. On that morning, another
employee told Bents that it appeared Clark was sleeping at his desk during work
hours. So Bents went to Clark’s office and took a picture of him around 8:30am.
Both Bents and the reporting employee stated that they heard Clark breathing.
Bents immediately sent to corporate management the picture of Clark sleeping
and employee statements corroborating the event. 13 A few minutes later, Clark
awoke on his own. Champion asserts that Clark did not appear to be in physical
distress. And Clark does not provide evidence otherwise. Bents explained to Clark
that at least two people saw him sleeping. Clark told Bents that he didn’t remember
getting up that morning or driving to work, but woke up at his desk. Clark also told
Bents that he might have been experiencing a diabetic emergency, and that he was
going to the hospital. Then Clark left the office.
While at the emergency room, he received a call from Mays. Mays
terminated Clark for violating the alertness policy. Clark insisted that he wasn’t
sleeping; he said he passed out from low blood sugar. But Mays simply wished him

13

Specifically, Bents sent the picture to Mays (Corporate Human Resources Manager), McCoy (then-

Senior Vice President), and Matt Sullivan (then-Director of Field Operations, and the individual to
whom Bents reported).

7a

Case: 18-11613 Document: 00515342393 Page: 8

Date Filed: 03/12/2020

well in future endeavors.
Clark contends that Champion fired him because of a condition resulting from
his disability. 14 So Clark sued Champion, alleging violations of the Americans with
Disabilities Act 15 and the Texas Labor Code. 16

Specifically, Clark alleges

discrimination and harassment on the basis of disability, retaliation, failure to
accommodate a disability, and failure to engage in the interactive process under

14

Clark claims that he suffered temporary amnesia and lost consciousness due to complications of

his Type II diabetes.
15

Congress amended the Americans with Disabilities Act in 2008, and the amended version became

effective on January 1, 2009. The amendment “rejected what Congress perceived to be the Supreme
Court’s unduly restrictive approach to analyzing whether [an individual] suffered from a ‘disability’
for purposes of the ADA.” Patton v. eCardio Diagnostic LLC, 793 F. Supp. 2d 964, 968 (S.D. Tex. 2011)
(alteration in original) (internal quotation marks omitted). So Congress expanded the definition of
“disability” and instructed courts to construe that definition “broadly.” Id.; see also 42 U.S.C. § 12102.
Here, Clark has asserted that diabetes is the only disability upon which he bases his claims. And
Champion does not contest that diabetes is a qualifying disability. So the amendments will not play a
major role in this case. Although the amended version is known as the “ADAAA,” for consistency and
convenience, we use “ADA” throughout.
16

Clark’s claims under the Texas Labor Code are based on the Texas Commission on Human Rights

Act (TCHRA). “Because TCHRA ‘parallels the language of the [ADA]’, Texas courts follow ADA law
in evaluating TCHRA discrimination claims. E.g., Pegram v. Honeywell, Inc., 361 F.3d 272, 285–
87 (5th Cir. 2004). The following ADA analysis therefore applies equally to the TCHRA.” Williams v.
Tarrant Cty. Coll. Dist., 717 F. App’x 440, 444–45 (5th Cir. 2018).

8a

Case: 18-11613 Document: 00515342393 Page: 9

Date Filed: 03/12/2020

both the ADA and TCHRA. Accordingly, he claims entitlement to myriad damages
and fees pursuant to state and federal law.
Both parties filed motions for summary judgment. The district court granted
Champion’s motion, dismissing all of Clark’s claims. Clark timely appealed.
II. STANDARD OF REVIEW
“We review a district court’s summary judgment de novo, applying the same
standard as the district court.” 17 Summary judgment is warranted “if the movant
shows that there is no genuine dispute as to any material fact and the movant is
entitled to judgment as a matter of law. 18 “A fact is material if it ‘might affect the
outcome of the suit under the governing law,’ and a dispute is genuine if ‘the
evidence is such that a reasonable jury could return a verdict for the nonmoving
party.’ ” 19 “When considering a motion for summary judgment, the court views
all facts and evidence in the light most favorable to the non-moving party.” 20 “Mere
conclusory allegations are insufficient to defeat summary judgment.” 21
III. DISCUSSION
A.

Direct Evidence of Disability Discrimination

17

Tagore v. United States, 735 F.3d 324, 327 (5th Cir. 2013).

18

FED. R. CIV. P. 56.

19

Tagore, 735 F.3d at 328 (quoting Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248 (1986)).

20

Howell v. Town of Ball, 827 F.3d 515, 522 (5th Cir. 2016).

21

Moss v. BMC Software, Inc., 610 F.3d 917, 922 (5th Cir. 2010).

9a

Case: 18-11613 Document: 00515342393 Page: 10

Date Filed: 03/12/2020

Title II of the ADA prohibits an employer from discriminating against an
employee who is a qualified individual with a disability on the basis of that
disability.22 “In a discriminatory-termination action under the ADA, the employee
may either present direct evidence that [he] was discriminated against because of
[his] disability or alternatively proceed under the burden- shifting analysis first
articulated in McDonnell Douglas.” 23
Clark argues that he presented direct evidence of discrimination based on
disability. But the district court disagreed. The district court determined that
Clark would be unable to establish a claim for disability discrimination through
direct evidence, and that “the evidence proffered fails to establish that [Champion]
relied upon any forbidden factor in making the ultimate decision to fire [Clark].”
Clark believes this finding was in error. The district court did not explain its
conclusion. But we agree with it.
“[D]irect evidence is rare.” 24 And this is not one of those rare cases. We have
defined “direct evidence” as “evidence which, if believed, proves the fact without

22

42 U.S.C. § 12112(a).

23

E.E.O.C. v. LHC Grp., Inc., 773 F.3d 688, 694 (5th Cir. 2014) (citing McDonnell Douglas Corp. v.

Green, 411 U.S. 792 (1973)). See infra Part III.B for a discussion of the McDonnell Douglas
burden-shifting analysis.
24

Portis v. First Nat’l Bank of New Albany, 34 F.3d 325, 328 (5th Cir. 1994).

10a

Case: 18-11613 Document: 00515342393 Page: 11

Date Filed: 03/12/2020

inference or presumption.” 25 “A statement or document which shows ‘on its face
that an improper criterion served as a basis—not necessarily the sole basis, but a
basis—for the adverse employment action [is] direct evidence of discrimination.’ ” 26
Clark’s case for direct evidence of discrimination boils down to the following
assertions: (1) Bents, Mays, and Vice President McCoy knew Clark had diabetes
and believed it to be a condition that constitutes a disability; (2) Bents, Clark’s
supervisor, stated that Clark “may have” informed him about previous problems with
his insulin levels; (3) upon learning that co- workers discovered Clark not awake at
his desk during work hours, McCoy responded, “perfect. . . . let him go”; and (4) after
awakening, Clark told Bents that he was going to the hospital, but neither Bents nor
anyone else attempted to determine whether there was a medical reason for Clark’s
conduct.
This evidence is a far cry from what we have previously found to be direct
evidence of discrimination. For example, in Portis, a demoted bank employee
alleging sex discrimination in violation of Title VII provided evidence of multiple
occasions where her supervisor told her that she “wouldn’t be worth as much as the

25

Brown v. E. Miss. Elec. Power Ass’n, 989 F.2d 858, 861 (5th Cir. 1993).

26

Herster v. Bd. of Supervisors of La. State Univ., 887 F.3d 177, 185 (5th Cir. 2018) (quoting Jones

v. Robinson Prop. Grp., L.P., 427 F.3d 987, 993 (5th Cir. 2005)).

11a

Case: 18-11613 Document: 00515342393 Page: 12

Date Filed: 03/12/2020

men would be to the bank” and “she would be paid less because she was a woman.” 27
We held that no inference was required to conclude that the employee was treated
differently because of her sex, meaning her supervisor’s statements constituted
direct evidence of discrimination. 28
There was also direct evidence of discrimination in Etienne, where a casino’s
former employee, an African-American woman, alleged that she was not promoted
to a managerial position due to her race in violation of Title VII. 29 We held that
statements made “on several occasions” by the general manager—who was
responsible for filling the position—that he did not allow “dark skin black person[s
to] handle any money at” the casino and that he “thought [the employee] was
too black to do various tasks at the casino” constituted direct evidence of
discrimination. 30
Direct evidence was also present in our 2005 Jones case. There, an AfricanAmerican applicant wasn’t hired for any of a casino’s vacant poker dealer
positions and sued the owner under Title VII for race discrimination. 31

27

Portis, 34 F.3d at 329.

28

Id. at 329−31.

29

Etienne v. Spanish Lake Truck & Casino Plaza, L.L.C., 778 F.3d 473, 474 (5th Cir. 2015).

30

Id. at 476.

31

Jones, 427 F.3d at 991.

12a

The

Case: 18-11613 Document: 00515342393 Page: 13

Date Filed: 03/12/2020

applicant presented evidence that the casino’s poker room manager—who was
responsible for hiring—regularly used racially derogatory language and stated that
“the[y] were not going to hire a black person unless there were extenuating
circumstances.” 32 Further, the applicant presented evidence that the same manager
told his assistant that “good old white boys don’t want blacks touching their cards
in their face” and said to a former employee “maybe I’ve been told not to hire too many
blacks in the poker room.” 33 The court held that these statements were direct
evidence of discrimination. 34
Our 2006 decision in Rodriguez is also instructive. “This case is one of those
rare

ADA

cases

in

which

we

are

presented

with direct (rather

than

circumstantial) evidence of discriminatory intent: ConAgra and Ms. Zamora have
both admitted that Rodriguez did not get his job because of his allegedly uncontrolled

32

Id. at 993.

33

Id.

34

Id. Although in Portis, Etienne, and Jones we analyzed allegations of direct evidence of discrimination

in the context of Title VII, the principle of what qualifies as direct evidence is persuasive in the
context of the ADA—a sister antidiscrimination statute. See, e.g., Rodriguez v. Eli Lilly & Co., 820
F.3d 759, 765 (5th Cir. 2016) (citing discrimination cases under Title VII and the Age Discrimination
in Employment Act of 1967 in its analysis of whether a former employee presented direct evidence
of disability discrimination under the ADA).

13a

Case: 18-11613 Document: 00515342393 Page: 14

Date Filed: 03/12/2020

diabetes.” 35 “In its appellate brief, ConAgra twice concedes (albeit coupled with an
irrelevant caveat) that it withdrew Rodriguez’s job offer because it regarded him as
substantially limited by his diabetes in the major life activity of working.” 36
In this case, Champion’s brief makes no such concession. And Clark fails to
point to any statement or document that directly and expressly links his disability
to a decisionmaker’s choice to terminate him. Rather, Clark points to generalized
knowledge about his diabetes and the termination itself as direct evidence of
discriminatory intent. But that’s not direct evidence; it would require us to make an
inference. 37
Clark’s strongest argument for direct evidence of discrimination is Vice
President McCoy’s statement, “perfect. . . . let him go,” after he received a picture

35

Rodriguez v. ConAgra Grocery Prods. Co., 436 F.3d 468, 480 (5th Cir. 2006).

36

Id. at 479

37

Similarly, in Herster, we held that an instructor did not show direct evidence of sex discrimination

in her pay discrimination suit against a university under Title VII where her male supervisor
referred to her as a “trailing spouse” who got her job so that her husband would accept a
professorship, said that he thought she was going to have children and be happy, and that she was
acting like a “princess.” 887 F.3d at 186−87. We determined that these were “stray remarks,” not
direct evidence of discrimination. Id. Although the “trailing spouse” comment may have implied
sex was a factor in compensation, someone could be referred to as a “trailing spouse” irrespective
of sex, and the supervisor’s other comments would have required an inferential leap to prove that
the university paid the instructor less because of her sex. Id.

14a

Case: 18-11613 Document: 00515342393 Page: 15

Date Filed: 03/12/2020

of Clark not awake at his desk during business hours with the subject line “Charles
Clark sleeping.” “Where a plaintiff offers remarks as direct evidence, we apply a fourpart test to determine whether they are sufficient to overcome summary judgment.” 38
“To qualify as direct evidence of discrimination, workplace comments must be 1)
related [to the protected class of persons of which plaintiff is a member]; 2) proximate
in time to the terminations; 3) made by an individual with authority over the
employment decision at issue; and 4) related to the employment decision at
issue.” 39 McCoy’s statement is from the same day as Clark’s termination and it was
about terminating Clark, thus satisfying the second and fourth requirement. But
unlike in Portis, Etienne, and Jones, the evidence suggests that the speaker (McCoy)
was not the ultimate decisionmaker regarding termination.40 And Clark admits as
much in his brief—undercutting his own argument. Plus, there’s nothing in the email
with the picture or McCoy’s response about Clark’s disability. So McCoy’s statement
can’t be direct evidence of disability discrimination because it fails to satisfy the first
and third requirement. And, problematically, accepting the statement as direct
evidence would require an inference. If the subject line had been something like

38

Rodriguez, 820 F.3d at 764 (quoting Reed v. Neopost USA, Inc., 701 F.3d 434, 441 (5th Cir. 2012)).

39

Id. (quoting Auguster v. Vermilion Par. Sch. Bd., 249 F.3d 400, 405 (5th Cir. 2001) (alterations in

original) (internal quotation marks omitted)).
40

McCoy stated that “[he] didn’t make the termination decision.” Rather, “Mays made the termination

decision based on that picture.” And HR Manager “Jeff Mays makes all termination decisions.”

15a

Case: 18-11613 Document: 00515342393 Page: 16

Date Filed: 03/12/2020

“Charles Clark in a diabetic emergency,” and McCoy had responded “perfect. . . . let
him go,” that might pass muster as direct evidence of discrimination. It would
certainly be more akin to the statements in Portis, Etienne, Jones, and Rodriguez,
which all included explicit references to the forbidden factor (sex, race, or disability).
But those are not the facts here. McCoy’s statement is not direct evidence of
discrimination. 41
At best, Clark could argue that McCoy’s statement provides circumstantial
evidence that his disability influenced Champion’s decision to fire him. Thus, the
district court did not err in finding no direct evidence of discrimination on the basis
of disability. We affirm the district court’s finding on this issue.
B.

“Qualified Individual”
Although Clark—like most plaintiffs in disability discrimination suits—

failed to provide direct evidence of discrimination, he may still “proceed under the

41

See Rodriguez, 820 F.3d at 764 (finding that a supervisor’s remarks about a former employee with

PTSD being “unstable” are not direct evidence of disability discrimination where the former
employee failed to prove all elements of the four-part test and the court would have had to make an
inference regarding causation); Sandstad v. CB Richard Ellis, Inc., 309 F.3d 893, 898 (5th Cir. 2002)
(finding that a then-President’s remark that the company had “skip[ed] a generation” in selecting his
replacement is not direct evidence of age discrimination where the remark was ambiguous and the
President was not responsible for the former employee’s termination).

16a

Case: 18-11613 Document: 00515342393 Page: 17

Date Filed: 03/12/2020

burden-shifting analysis first articulated in McDonnell Douglas.” 42 Under
McDonnell Douglas, the plaintiff must carry the initial burden of establishing a
prima facie case of discrimination. 43 “To establish a prima facie discrimination
claim under the ADA, a plaintiff must prove: (1) that he has a disability; (2) that
he was qualified for the job; and (3) that he was subject to an adverse employment
decision on account of his disability.” 44
This discussion focuses on the second prong—whether Clark was
“qualified” for the job. The district court found that Clark was “not a qualified
individual under the ADA.” 45 Clark argues that the court erred. A plaintiff can

42

LHC Grp., Inc., 773 F.3d at 694.

43

McDonnell Douglas, 411 U.S. at 802.

44

Moss v. Harris Cty. Constable Precinct One, 851 F.3d 413, 417 (5th Cir. 2017) (internal quotation

marks omitted); Americans with Disabilities Act of 1990 § 102, 42 U.S.C. § 12112(a). If the plaintiff
“is successful, then [the defendant] must articulate a legitimate, nondiscriminatory reason for
terminating [the plaintiff].” LHC Grp., Inc., 773 F.3d at 697. The burden then shifts back to the
plaintiff to show that the defendant’s “proffered reason is pretextual.” Id. But we don’t reach the
second or third step of the burden-shifting analysis because Clark fails to make a prima facie case
for discrimination.
45

The district court prefaced its analysis by finding that, “[Clark] has not met his burden of

establishing a prima facie case for disability discrimination because he fails to adequately address
the McDonnell Douglas burden-shifting framework analysis in his response. The Court will assume
arguendo that [Clark] adequately responded to [Champion’s] Motion and will address each

17a

Case: 18-11613 Document: 00515342393 Page: 18

Date Filed: 03/12/2020

establish that he is “qualified” by showing that “either (1) [he] could perform the
essential functions of the job in spite of [his] disability,” or “(2) that a reasonable
accommodation of [his] disability would have enabled [him] to perform the essential
functions of the job.” 46 “[T]he question is whether he was qualified at the time of his
termination.” 47
We agree with the district court: The evidence suggests that Clark could not
perform the essential functions of the job with or without an accommodation. The
Champion Handbook details expectations of employees, including offenses “that
may result in . . . immediate termination.” 48 One such offense is “failure to maintain

requirement, in turn, needed to establish a prima facie case for disability discrimination.” Our
analysis makes the same assumption and then analyzes the “qualified individual” prong.
46

Moss, 851 F.3d at 417−18 (internal quotation marks omitted).

47

Id. at 418. Notably, we consider all relevant factors to determine whether an employee was qualified

at the time of his termination. See 42 U.S.C. § 12111(8). “[T]he inquiry does not stop with [the
employee]; the court must also look at whether [the employer] met its accommodation obligations.”
Grubb v. Sw. Airlines, 296 F. App’x 383, 388 (5th Cir. 2008).
48

The Handbook’s list of terminable offenses includes “[f]ailure to maintain alertness: . . . sleeping or giving
the appearance of sleeping at any time while on duty or on the client’s property (including breaks)
is considered a terminable offense.” The ADA states that “consideration shall be given to the
employer’s judgment as to what functions of a job are essential, and if an employer has prepared a
written description . . . this description shall be considered evidence of the essential functions of the
job.” § 12111(8). Although not in a written description of Clark’s specific position, being awake is

18a

Case: 18-11613 Document: 00515342393 Page: 19

Date Filed: 03/12/2020

alertness.” Clark conceded that if he is not awake at work, he is not alert and can’t do
his job.49
But Clark still argues in his brief that he is qualified. Yet Clark fails to cite a
single case from the Fifth Circuit to support his argument that he was a “qualified
individual.” 50 His argument boils down to two points: First, Clark contends that

arguably an essential function of all jobs at Champion.
49

“[McAllister:] If you are not awake at work, you can’t do your job. Right? [Clark:] “Obviously, yes.”

“[T]he ADA does not insulate an employee from adverse action taken by an employer because of
misconduct in the workplace, even if his improper behavior is arguably attributable to an
impairment.” Green v. Medco Health Sols. of Tex., LLC, 947 F. Supp. 2d 712, 729 (N.D. Tex. 2013)
(internal quotation marks omitted).
50

Rather, all the cases Clark cites are from the Ninth Circuit or a California federal district court,

except for one Southern District of Indiana case. These cases are nonbinding, and we did not find
them persuasive because, among other things, they seem to overlook the requirement that the
employee be qualified at the time of termination. The cases are also factually distinguishable. Take
Halsey, for example. In that case, unlike this one, the employer did not have a companywide policy
that required alertness and made sleeping on the job a terminable offense, and the terminated
employee was a training attendee—not a personnel manager like Clark who was responsible for
training other employees and served as an example of the policies he enforced. See generally Halsey
v. JP Morgan Chase Bank, No. 08-01335, 2009 WL 3353459 (N.D. Cal. Oct. 16, 2009). In Rednour,
the court concluded that because there is “a triable issue of fact whether [the proposed
accommodation] would have rendered [the former employee] able to perform the essential functions
of her job had it been implemented, we cannot at this stage conclude that [the former employee]

19a

Case: 18-11613 Document: 00515342393 Page: 20

Date Filed: 03/12/2020

his sleeping or being unconscious on the job would not pose a safety risk to others.
Even if true, that does not satisfy Clark’s burden of proving that he could perform
the essential functions of his job. And we have found that an employee in a nonsafety-related position was not a “qualified individual” under the ADA where he
repeatedly fell asleep at work due to his disability. 51
Second, Clark argues that Champion fails to present evidence of his poor
performance in general. But Champion doesn’t need to. Champion insists that it

was not a ‘qualified individual’—with this accommodation in place—as a matter of law.” Rednour v.
Wayne, 51 F. Supp. 3d 799, 818 (S.D. Ind. 2014). Similarly, in Dark, the court concluded that there
was “a genuine issue of material fact as to whether Dark was qualified with [his proposed]
reasonable accommodation,” where his employer failed to even consider the proposed
accommodation. Dark v. Curry County, 451 F.3d 1078, 1091 (9th Cir. 2006). Unlike the former
employees in Rednour and Dark, Clark has never proposed an accommodation for diabetes-induced
unconsciousness and amnesia that would enable him to do the essential functions of his job.
Clark’s citation to Gambini is also unpersuasive; at best, the parenthetical he offers is tangentially
related to the “qualified individual” issue, and the Gambini court applied Washington Supreme
Court precedent to Washington state law. See generally Gambini v. Total Renal Care, Inc., 486 F.3d
1087 (9th Cir. 2007). Clark’s citation to Walgreen is also unpersuasive; the discussion of the prima
facie case “focuses solely on the third prong” and does not address the second prong—whether the
former employee was a “qualified individual.” E.E.O.C. v. Walgreen Co., 34 F. Supp. 3d 1049,
1058−59 (N.D. Cal. 2014).
51

Grubb, 296 F. App’x at 388.

20a

Case: 18-11613 Document: 00515342393 Page: 21

Date Filed: 03/12/2020

terminated Clark because he was sleeping at his desk during the work day. Even
assuming Clark does his job well while he’s awake, by his own admission he cannot
do his job at all when he’s asleep. As we have held, maintaining consciousness is a
basic element of any job. 52 In Grubb, a flight instructor sued an airline under the
ADA after it terminated him because he repeatedly fell asleep at work. 53 But we
held that the instructor was not a “qualified individual” under the ADA due to his
sleep apnea because being conscious and alert was a basic element of his job
performance. 54 Like the ground-based flight instructor in Grubb, Clark was

52

Id.

53

Id. at 384.

54

Id. at 388 (“Grubb’s alleged disability involved a basic element of the performance of his job as a

flight instructor, namely being conscious and alert. . . . [C]ourts have repeatedly approved of ADAchallenged discharges for falling asleep at work, particularly in safety- sensitive positions. See, e.g.,
Leonberger v. Martin Marietta Materials, Inc., 231 F.3d 396, 399 (7th Cir. 2000); Cannon v. Monsanto
Co., No. 05-5558, 2008 WL 236922, at *4 (E.D. La. Jan. 28, 2008).”). Although Grubb is unpublished,
this circuit, like many of its sister circuits, has a history of published cases establishing that lack
of physical presence is a commonly accepted disqualification for ADA protection. See, e.g., Rogers
v. Int’l Marine Terminals, Inc., 87 F.3d 755, 759 (5th Cir. 1996); Jackson v. Veterans Admin., 22
F.3d 277, 279 (11th Cir. 1994); Tyndall v. Nat’l Educ. Ctrs., Inc. of Cal., 31 F.3d 209, 213 (4th Cir.
1994); Carr v. Reno, 23 F.3d 525, 530 (D.C. Cir. 1994). “An employee who does not come to work
cannot perform any of his job functions, essential or otherwise.” Rogers, 87 F.3d at 759 (quoting
Tyndall, 31 F.3d at 213) (internal quotation marks omitted). Similarly, an employee who is sleeping

21a

Case: 18-11613 Document: 00515342393 Page: 22

Date Filed: 03/12/2020

responsible for training. Although Champion doesn’t allege Clark fell asleep
during training, he certainly wasn’t able to train—or complete any other essential
functions of his job—without being awake. So Clark failed to prove that he could
perform the essential functions of his job in spite of his disability.
Clark also fails to show that a reasonable accommodation would have
allowed him to perform his job. Clark requested—and was granted—multiple
accommodations related to his diabetes, including a refrigerator to store insulin
and time off for doctor appointments. But he did not request an accommodation
for loss of consciousness due to diabetes. 55 And Clark still has not identified any
accommodation that would have allowed him to perform his job while suffering from
diabetes-induced amnesia and unconsciousness— probably because interviewing,
hiring, training, disciplining, and terminating security guards requires him to be
awake. Thus, Clark has failed to prove that, at the time of his termination, he could
perform the essential functions of his job—with or without accommodation. So we
affirm the district court’s finding that Clark was not a “qualified individual.”

or unconscious at work cannot perform any of the functions of his job, essential or otherwise, during
that time.
55

“It is the plaintiff’s burden to request reasonable accommodations.” Jenkins v. Cleco

Power, LLC, 487 F.3d 309, 315 (5th Cir. 2007).

22a

Case: 18-11613 Document: 00515342393 Page: 23

C.

Date Filed: 03/12/2020

Disability-based Harassment
The next issue is whether the district court erred in finding that Clark’s

“disability harassment claim fails to meet the standards imposed by the Fifth
Circuit.” Clark argues that he was subjected to “a long and ongoing pattern of
harassment” due to “conditions arising from his diabetes.” Specifically, Clark
asserts that he developed eczema and dry skin because of his diabetes, which
prevented him from following Champion’s policy requiring employees to maintain
clean-shaven faces. Clark alleges that Champion denied him part of a raise because
of this inability to shave. And Clark alleges that, due to surgery on his left shoulder,
he was unable to follow Champion’s dress code requiring that employees tuck in
their shirts. Clark claims that he was subjected to continuing ridicule relating to
these dress code and grooming requirements.
To prevail on a claim of disability-based harassment, “the plaintiff must prove:
(1) that she belongs to a protected group; (2) that she was subjected to unwelcome
harassment; (3) that the harassment complained of was based on her disability or
disabilities; (4) that the harassment complained of affected a term, condition, or
privilege of employment; and (5) that the employer knew or should have known of
the harassment and failed to take prompt, remedial action.” 56 The parties don’t
dispute that Clark belongs to a protected group. So we assume for argument’s sake

56

Flowers v. S. Reg’l Physician Servs. Inc., 247 F.3d 229, 235−36 (5th Cir. 2001).

23a

Case: 18-11613 Document: 00515342393 Page: 24

Date Filed: 03/12/2020

that he does.
Importantly,

the

disability-based

“harassment

must

be

sufficiently

pervasive or severe to alter the conditions of employment and create an abusive
working environment.” 57 “In determining whether a work environment is abusive,
we consider the entirety of the evidence in the record, including ‘the frequency of
the discriminatory conduct, its severity, whether it is physically threatening or
humiliating, or a mere offensive utterance, and whether it unreasonably interferes
with an employee’s work performance.’ ” 58
Here, Clark’s disability-based harassment claim is

based upon

a

disagreement with Champion regarding his compliance with the company’s dress
and grooming policy. In support of Clark’s allegations, he described a series of
emails with Champion. These emails capture a disagreement between Clark and
Champion regarding terms of employment and accommodations. 59 And we held in

57

Credeur v. Louisiana Through Office of Att’y Gen., 860 F.3d 785, 796 (5th Cir. 2017) (quoting Flowers,

247 F.3d at 236).
58

Id. (quoting Flowers, 247 F.3d at 236).

59

For example, Clark requested an accommodation post-shoulder surgery exempting him from the

requirement to tuck in his shirt. But the doctor’s note he provided simply prohibited “manipulation
of the left arm until released by the surgeon”; it did not state whether that limitation would prevent
Clark from tucking in his shirt. Champion wanted more clarity, so Clark submitted additional
medical documentation. Also, when Champion agreed to exempt Clark from the shaving requirement

24a

Case: 18-11613 Document: 00515342393 Page: 25

Date Filed: 03/12/2020

Credeur that a disagreement with an employer over terms of employment or an
accommodation do not amount to harassment. 60 In fact, we contrasted the
employee−plaintiff’s claims in Credeur to those of the employee−plaintiff in
Flowers, where the alleged harassment included “humiliating and offensive ad
hominem attacks that had no rational relation to Flowers’s work performance. The
conduct Credeur identifies is not at all analogous.” 61 Notably, Clark does not allege
any ad hominem attacks, teasing, physical or verbal threats, or inappropriate
language. Clark’s allegations are like those in Credeur, not Flowers. Even assuming
that the alleged harassment was based on Clark’s disability, it was not severe or

for medical reasons, it offered him an additional fifty cents per hour if he would become compliant
with the clean-shaven policy. Clark asserted that this was harassment and that he was denied a
raise.
60

Credeur, 860 F.3d at 797 (affirming summary judgment for the employer on former employee’s

harassment claims and finding that disputes with her supervisors concerning job performance,
workplace rules, and reasonable accommodations were not “harassment” and did not create a hostile
work environment).
61

Id. at 796 (discussing Flowers, 247 F.3d at 237). In Flowers, we held that there was sufficient

evidence that the employer harassed an HIV-positive employee where, once her HIV-positive status
became known, her supervisors suddenly avoided her, intercepted or eavesdropped on her calls,
refused to shake hands or socialize with her, gave her negative performance appraisals for the first
time, lured her into adversarial meetings on false pretenses, “randomly” drug-tested her four times
in one week, called her a “bitch,” and ultimately fired her. Flowers, 247 F.3d at 236−37.

25a

Case: 18-11613 Document: 00515342393 Page: 26

Date Filed: 03/12/2020

pervasive and did not create an abusive working environment. So Clark’s
disability-based harassment claim is unavailing.
But the district court found another reason why Clark’s claim fails:62 Clark
failed to satisfy prong three—that is, he didn’t show that the harassment was based
on his disability. The doctor’s letter excusing Clark from shaving mentions “eczema
and dry skin”—not diabetes. 63 The only evidence Clark provided to connect the
alleged harassment to his diabetes is his own conclusory assertion that his
diabetes contributes to his skin condition, and thus his inability to shave. That is
not enough. 64 So any alleged harassment is not based on Clark’s diabetic condition.

62

Although the district court did not address whether the alleged harassment was severe or

pervasive, we may affirm a grant of summary judgment on any ground the record supports.
Windham v. Harris County, 875 F.3d 229, 234 (5th Cir. 2017) (citing United States ex rel. King v.
Solvay Pharm., Inc., 871 F.3d 318, 323 (5th Cir. 2017)); Griffin v. United Parcel Serv., Inc., 661 F.3d
216, 221 (5th Cir. 2011) (“Even if we do not agree with the reasons given by the district court to
support summary judgment, we may affirm the district court’s ruling on any grounds supported by
the record.”) (quoting Lifecare Hosps., Inc. v. Health Plus of La., Inc., 418 F.3d 436, 439 (5th Cir.
2005)).
63

The letter states, “[p]lease excuse [Clark] from the shaving requirement as he has eczema and dry

skin.”
64

Credeur, 860 F.3d at 793 (“ ‘[A]n employee’s unsupported testimony that she could perform her job

functions from home’ does not create a genuine dispute of fact to preclude summary judgment.”)
(quoting E.E.O.C. v. Ford Motor Co., 782 F.3d 753, 763−64 (6th Cir. 2015) (en banc)); Taylor v.

26a

Case: 18-11613 Document: 00515342393 Page: 27

Date Filed: 03/12/2020

Likewise, the conduct complained of regarding Champion’s dress code is based
upon Clark’s alleged inability to tuck in his shirt due to surgery on his left shoulder,
not diabetes. Yet Clark repeatedly stated in his deposition that diabetes is the only
disability that is the basis for his lawsuit. In sum, Clark failed to sufficiently
connect his harassment claims—based on his alleged inability to shave or tuck in
his shirt—to his diabetes. So Clark failed to satisfy the third prong—that the alleged
harassment was based on his disability. As such, we affirm the district court’s
finding on this issue. 65

Principal Fin. Grp., Inc., 93 F.3d 155, 165 n.10 (5th Cir. 1996) (“[C]onclusory allegations, speculation,
and unsubstantiated assertions [regarding an alleged disability] are inadequate to satisfy the
[former employee]’s burden.”) (quoting Forsyth v. Barr, 19 F.3d 1527, 1533 (5th Cir. 1994)).
65

Clark also asserted disability-based harassment claims under the Texas Labor Code, pursuant to

which a charge “must be filed not later than the 180th day after the date the alleged unlawful
employment practice occurred.” TEX. LABOR CODE § 21.202(a). As the district court explained,
“[a] charge filed with the EEOC, more than 180 days after the occurrence of an alleged unlawful
employment practice under the [TCHRA], is subject to dismissal as time-barred. See Adams v.
DaimlerChrysler Servs. NA LLC, 252 F. App’x 681, 683 (5th Cir. 2007).” Clark filed his EEOC charge
on January 10, 2017. Applying the limitation imposed by the TCHRA, the district court concluded
that “all state law claims arising before July 14, 2016[] must be dismissed as time-barred.” We
agree with the district court’s analysis. Here, the alleged disability-based harassment occurred in the
spring of 2016, so Clark’s harassment claim would be time barred. To the extent he alleges that the
harassment continued on or after July 14, 2016, the analysis regarding Clark’s harassment claim

27a

Case: 18-11613 Document: 00515342393 Page: 28

D.

Date Filed: 03/12/2020

Accommodations
The next issue is whether the district court erred in finding no failure to

accommodate Clark’s disability and no failure to engage in an interactive process.
“Under the ADA, it is unlawful for an employer to fail to accommodate the known
limitations of an employee’s disability.” 66

Clark “must prove the following

statutory elements to prevail in [his] failure-to-accommodate claim: (1) [he] is a
qualified individual with a disability; (2) the disability and its consequential
limitations were known by the covered employer; and (3) the employer failed to
make reasonable accommodations for such known limitations.” 67 As explained in
Part III.B, Clark failed to show that he’s a “qualified individual” under the ADA.
That failure alone is fatal to his failure- to-accommodate claim. 68
Even if Clark was a “qualified individual,” his failure-to-accommodate claim
fails at a more fundamental level. Clark devoted a mere two sentences to his

under the ADA would apply to the TCHRA as well. See supra note 16.
66

Credeur, 860 F.3d at 792 (quoting Griffin, 661 F.3d at 224).

67

Feist v. Louisiana, Dep’t of Justice, Office of the Att’y Gen., 730 F.3d 450, 452 (5th Cir. 2013) (internal
quotation marks omitted).

68

See Credeur, 860 F.3d at 792 (analyzing Credeur’s failure-to-accommodate claim and noting, “[a]t

issue is whether Credeur is a ‘qualified’ individual within the meaning of the ADA. If she is not, our
inquiry ends.”).

28a

Case: 18-11613 Document: 00515342393 Page: 29

Date Filed: 03/12/2020

argument on this issue. 69 As the district court noted, he “fails to pinpoint any
request(s) that were not subsequently accommodated.” Clark did not request an
accommodation for loss of consciousness due to diabetes. Clark claims he “never
had an opportunity to seek an accommodation or request the interactive process
because he was fired while he was in the emergency room.” This “argument” is more
of an admission. Clark had ample opportunity—over a year, in fact—to request an
accommodation. 70

“It

is

the

plaintiff’s

burden

to

request

reasonable

accommodations.” 71 Clark did not carry his burden. Regardless of the framing,
Clark is really requesting an after-the-fact, retroactive exception to the alertness
policy as an accommodation for his underlying disability—diabetes. But that is not

69

Contrary to Rule 28, this section also lacks a single citation to the record or case law. FED. R.

APP. P. 28(a)(8) (The appellant’s brief “must contain: (A) appellant’s contentions and the reasons for
them, with citations to the authorities and parts of the record on which appellant relies . . . .”).
70

Clark knew about his diabetes before he started work at Champion. And he claims unconsciousness

is a potential effect of his condition. Clark worked at Champion for over a year, but he never
requested an accommodation to address diabetes-induced unconsciousness or amnesia. Yet he
managed to make multiple other diabetes-related accommodation requests during that time. And,
as discussed, Champion granted those requests.
71

Jenkins, 487 F.3d at 315 (“ ‘In general . . . it is the responsibility of the individual with the disability

to inform the employer that an accommodation is needed.’ . . . If the employee fails to request an
accommodation, the employer cannot be held liable for failing to provide one.”); see Taylor, 93 F.3d at
165 (citing 29 C.F.R. § 1630.9, App. (1995)).

29a

Case: 18-11613 Document: 00515342393 Page: 30

Date Filed: 03/12/2020

an accommodation under the ADA. 72
Clark’s failure to request an accommodation means that his failure-to engagein-the-interactive-process claim is dead on arrival: Without a request, Champion
could not possibly fail to engage in an interactive process. 73 As such, we affirm the
district court’s findings regarding Clark’s failure-to- accommodate and failure-toengage-in-the-interactive-process claims.

72

Moss, 851 F.3d at 418 n.2 (“Moss also argues that ‘continued employment in his own Deputy

Constable position’ would be a reasonable accommodation, but we fail to see how this is an
accommodation at all, let alone a reasonable accommodation.”); Burch v. Coca-Cola Co., 119 F.3d 305,
319 (5th Cir. 1997) (finding that a qualified individual with a disability who asks only to return to
work—but who is instead fired by his employer—has not advanced a failure to accommodate claim
under § 12112(b)(5)); see also Siefken v. Vill. of Arlington Heights, 65 F.3d 664, 666 (7th Cir. 1995)
(granting summary judgment in ADA case in which the plaintiff-employee conceded he was
terminated for failing to monitor and control his diabetes because “Siefken is not asking for an
accommodation; he is not asking the Village to change anything. He is asking for another chance . .
. . But the ADA does not require this”), cited with approval in Burch, 119 F.3d at 319 n.14.
73

“[O]nce the employee presents a request for an accommodation, the employer is required to engage

in the interactive process so that together they can determine what reasonable accommodations
might be available.” E.E.O.C. v. Chevron Phillips Chem. Co., LP, 570 F.3d 606, 622 (5th Cir. 2009);
see Taylor, 93 F.3d at 165 (“[I]t is the employee’s initial request for an accommodation which triggers
the employer’s obligation to participate in the interactive process of determining one. If the employee
fails to request an accommodation, the employer cannot be held liable for failing to provide one.”)
(internal citation omitted).

30a

Case: 18-11613 Document: 00515342393 Page: 31

E.

Date Filed: 03/12/2020

Retaliation
The next issue is whether the district court erred in finding that Clark failed

to present sufficient evidence to support his retaliation claim.74 McDonnell
Douglas provides the

burden-shifting framework for

claims of unlawful

retaliation under the ADA. 75 “To show an unlawful retaliation, a plaintiff must
establish a prima facie case of (1) engagement in an activity protected by the
ADA, (2) an adverse employment action, and (3) a causal connection between
the protected act and the adverse action.” 76 If “the plaintiff has established a prima
facie case, the defendant must come forward with a legitimate, non-discriminatory
reason for the adverse employment action.” 77 If the defendant does so, “the plaintiff
must adduce sufficient evidence that the proffered reason is a pretext for
retaliation. Ultimately, the employee must show that ‘but for’ the protected

74

The ADA states that “[n]o person shall discriminate against any individual because such individual

has opposed any act or practice made unlawful by this chapter or because such individual made a
charge, testified, assisted, or participated in any manner in an investigation, proceeding, or hearing
under this chapter.” 42 U.S.C. § 12203(a).
75

Sherrod v. Am. Airlines, Inc., 132 F.3d 1112, 1112 (5th Cir. 1998).

76

Nall v. BNSF Ry. Co., 917 F.3d 335, 348−49 (5th Cir. 2019) (quoting Seaman v. CSPH, Inc., 179

F.3d 297, 301 (5th Cir. 1999)); see also Credeur, 860 F.3d at 797 (same).
77

Nall, 917 F.3d 335, 349 (5th Cir. 2019) (quoting Seaman, 179 F.3d at 301).

31a

Case: 18-11613 Document: 00515342393 Page: 32

Date Filed: 03/12/2020

activity, the adverse employment action would not have occurred.” 78
Here,

Clark

asserts

that

he

suffered

retaliation—in the

form

of

termination—after lodging an internal complaint alleging disability-based
harassment. Clark easily satisfied prong two of the prima facie case: He suffered
an adverse employment action when he was fired. But Clark runs into trouble with
the rest of the test. Assuming that filing the complaint was protected activity, we
agree with the district court that Clark failed to show a causal connection between
his filing of the internal complaint and his termination. To establish this
requisite causal link—prong three of the prima facie case—“the evidence must show
that the employer’s decision to terminate was based in part on knowledge of the
employee’s protected activity.” 79
Clark attempts to buttress his retaliation claim with emails suggesting that
certain superiors at Champion were eager to see Clark leave—voluntarily or
involuntarily. 80 To be sure, these emails are not exonerating. But neither are they

78

Id.

79

Sherrod, 132 F.3d at 1122.

80

For example, there are multiple emails between management saying variations of “hopefully

[Clark] resigns soon.” Another email—which Clark’s immediate supervisor sent about seven months
after Clark filed his complaint—stated that he wanted to “start applying more pressure for him to
leave.” When asked about this email during his deposition, however, Clark’s supervisor referenced
Clark’s “bad attitude” and “excessive absences” as reasons for wanting him to leave. And Clark does

32a

Case: 18-11613 Document: 00515342393 Page: 33

Date Filed: 03/12/2020

incriminating. What matters is that Clark doesn’t connect his alleged “protected
activity”—his complaint about the handling of the grooming issues filed eight
months prior to his termination—to his superiors’ desire for him to leave. And some
of the statements on which Clark relies explicitly undercut any argument for
causation. One email chain specifically references Clark’s handling of unrelated
overtime issues as the reason for his supervisor’s dissatisfaction: “Hopefully [Clark]
resigns soon because if he had his way our OT would still be at 8%.” Even if Clark’s
superiors were out to get him because of his handling of overtime, or for some other
undisclosed reason, he presented no evidence connecting his internal complaint to his

not present any contradictory evidence.
Clark also relied on the timing of these emails as circumstantial evidence of causation. He emphasizes
that these emails were all sent after he filed his complaint in April 2016. But the timing may hurt
more than it helps him. The vast majority of Clark’s employment at Champion occurred after he
filed the internal complaint; Champion did not terminate him until eight months later. Plus,
managers exchanged these emails over many months, and they did not originate immediately—or
even shortly—after Clark filed the internal complaint. Rather, it seems as though independent events
(like Clark’s absences or receiving reports of him sleeping in his office) prompted these emails. Also,
in July 2016, Clark told Mays that he would “continue to do [his] job for the next few months until
[he] graduates from EMT school[] and find[s] a position in the medical field.” So it seems like Clark’s
departure announcement—not his internal complaint—prompted an email chain asking whether
Clark had given notice, and a response hoping that he would soon.

33a

Case: 18-11613 Document: 00515342393 Page: 34

Date Filed: 03/12/2020

termination. 81 This failure to show a prima facie case is a sufficient basis to affirm
the district court’s grant of summary judgment on this issue in Champion’s favor. 82
81

See Reed, 701 F.3d at 440 n.4 (“In addition, to the extent that Reed complains that the real reason

for his termination was his coworkers’ ‘setup job’ so that they could oust him out of a competition for
a free cruise, his claim is not cognizable. The [state civil rights law] does not protect an employee
against unfair business decisions, only discriminatory ones.”) (citing Nieto v. L & H Packing Co., 108
F.3d 621, 624 (5th Cir. 1997)).
82

Even if Clark established a prima facie case of unlawful retaliation, his claim would remain

unavailing. Clark failed to show that Champion’s proffered legitimate, non- discriminatory reason
for Clark’s termination—his sleeping at work in violation of Champion’s alertness policy—was
pretextual. “A plaintiff may show pretext either through evidence of disparate treatment or by
showing that the employer’s proffered explanation is false or unworthy of credence.” Caldwell v.
KHOU-TV, 850 F.3d 237, 242 (5th Cir. 2017) (quoting Jackson v. Cal-W. Packaging Corp., 602
F.3d 374, 378−79 (5th Cir. 2010)). Clark doesn’t argue that Champion treated other employees found
sleeping or unconscious at work any differently. In fact, the evidence shows that Champion previously
terminated employees for sleeping on the job in violation of the alertness policy. And Clark was
involved in at least one of those terminations. So he cannot use disparate treatment to show pretext.
See Wright v. Chevron Phillips Chem. Co., L.P., 734 F. App’x 931, 934 (5th Cir. 2018) (affirming
summary judgment in discrimination case because plaintiff failed to show evidence that other
employees caught sleeping on the job received more favorable treatment).
But Clark can’t show that Champion’s reason for termination was false either. “An explanation is
false or unworthy of credence if it is not the real reason for the adverse employment action.”
Caldwell, 850 F.3d at 242 (quoting Laxton v. Gap Inc., 333 F.3d 572, 578 (5th Cir. 2003)). It’s not
the ultimate accuracy of Champion’s reason that matters, but only whether it believed—in good

34a

Case: 18-11613 Document: 00515342393 Page: 35

Date Filed: 03/12/2020

Clark has not proven that he would not have been terminated “but for” filing

faith—that Clark violated company policy by failing to be awake and alert at work. See, e.g., Jackson,
602 F.3d at 379 (explaining that a former employee’s claim of innocence relating to the proffered basis
for termination—violation of the company’s written sexual harassment policy—does not create a
factual issue regarding the falsity of that reason because the issue is not whether the former
employee violated the policy; rather, it is whether the employer believed the former employee
violated the policy and acted upon that belief in good faith); Miller v. Metro Ford Auto. Sales, Inc.,
519 F. App’x 850, 853 (5th Cir. 2013) (“Importantly, even if Metro Ford mistakenly assumed that
Miller intentionally violated company policy by violating the consignment agreement, that mistake
is insufficient to demonstrate that Metro Ford’s stated rationale for terminating him was mere
pretext for retaliation.”). The evidence shows that Champion had received multiple reports from
multiple employees about Clark sleeping in his office during the workday. So he had a history making
it believable that he would be sleeping in his office. And on the day Champion terminated Clark,
multiple employees reported seeing Clark sleeping in his office and in no apparent distress. In fact,
Clark admitted that he was not awake and unable to do work that morning. But then Clark
awakened on his own—without medication or intervention—and walked about the office talking
normally. Sleeping (or appearing to sleep) at one’s desk during the workday is an immediately
terminable offense at Champion. And Champion management actively enforced this policy. Clark
never provided any medical evidence that a diabetic emergency caused him to lose consciousness the
morning of his termination. Based on these facts, it seems like Champion believed in good faith that
Clark had violated its alertness policy. So Clark’s argument that the reason was pretextual is
unpersuasive.

35a

Case: 18-11613 Document: 00515342393 Page: 36

Date Filed: 03/12/2020

an internal harassment complaint eight months prior. 83 So we affirm the district
court’s grant of summary judgment for Champion relating to Clark’s retaliation
claim.
F.

Damages
Finally, Clark argues that the district court erred in denying all of his claims

for damages. Clark asserts in a conclusory manner that his “claims should be
reinstated and that he is entitled to litigate his damages for back pay, front pay,
compensatory damages, attorney fees, costs and interests.” As discussed in Parts
III.A−E, we agree with the district court’s grant of summary judgment for Champion.
Absent a finding of liability, Clark is not entitled to litigate his damages claims. So
we affirm the district court on this issue as well.
CONCLUSION
For these reasons, we AFFIRM the district court across the board.

83

See Sherrod, 132 F.3d at 1122.

36a

